                                             CLOSEOUT FOR M93120065

                This case came to OIG on December 29, 1993, when we received a telephone call from
        the complainant.' He alleged that the subject! had fabricated data and made other - .
        misrepresentations in an NSF proposal that was the basis for an award3to the universitf and in
        an abstract submitted to a professional society.' The complainant also alleged that the subject,
        prior to applying for or receiving his NSF award, had Ned a patent application ibat
        misappropriated rights to a discovery that the complainant had made. In addition, the
        complainant made numerous allegations that the subject had done sloppy science and poor
        mentoring. OIG considered only those allegations that, if proven true, would be serious
        enough to be misconduct in science and that involved actions that occurred in the course of
        proposing, carrying out, or reporting on activities for which the subject sought or received
        NSF finding. The complainant also alleged that the subject and various university officials
        had retaliated against him for making his misconduct allegations.

                The complainant had brought his allegations to his university shortly before he came to
        OIG, and the university's inquiry concluded that the complaint about attempted
        misappropriation of the patent rights had substance and warranted an investigation. When the
        university informed OIG that it planned to investigate this allegation, OIG decided to suspend
        independent investigative activity and urged the university to consider the full range of the
        complainant's allegations in its investigation. The university investigation concluded that the
        subject had not committed misconduct.

               OIG examined the proposal and concluded that most of the complainant's allegations
    involved alleged failures by the subject to highlight limitations in the subject's data and that
    these alleged failures could not be considered misconduct in science. The university provided
    a satisfactory explanation regarding an allegation that the subject misrepresented the equipment
    available to him for his research. It indicated that the equipment was indeed available at an


    ' Mr.                   also known as Mr.   Wm.
        Dr.                 The subject was the complainant's former dissertation advisor.
    3                entitled _
                              ,"-.L
                                  "
                                  .

    4
    5
                                L
     The abstract, which lists the complainant as a co-author but was written and submitted by the subject, was
                                                I
    entitled "                                            ." It was submitted to !the- I
-   4                                  and published in the Proceedings for its Spring, 1994, meeting. According to
    the complainant, the subject, in his oral presentation at the Society's meeting, did not present the material in the
    written abstract. The abstract acknowledges support from the subject's NSF award.


                                                  Page 1 of 2     .                                 M93-65
                                         CLOSEOUT FOR M93120065

  affiliated institution and that there had been no misrepresentation. OIG concluded that there
  was no evidence of misconduct in the subject's proposal.

          The university inquiry committee concluded that the subject satisfactorily explained the
  basis for the claims he made in his abstract and that, although some of these claims were
  admittedly erroneous, none was evidence of misconduct. It did not, however, describe the
  basis of its conclusion to OIG. OIG wrote to the university requesting a fuller explanation of
  its conclusion, but the university's reply left certain questions unresolved. OIG has now
  concluded that the unresolved allegations in this case are not sufficiently serious to wanant ,
  further investigation of events that occurred six years ago!

         The complainant alleged to OIG that the university and members of the subject's
 department retaliated against him by denying him access to needed equipment, failing to make
 necessary accommodations to enable him to fonn a suitable dissertation committee and
 complete his dissertation in a timely fashion, and denigrating him in various ways. The
 complainant also sued the university for retaliating against him, citing in support of his claims
 for redress the most apparently serious incidents of alleged retaliation that he cited to OIG.
 The university presented evidence in court to indicate that it had legitimate reasons for taking
 whatever adverse actions it had taken against the complainant, and the jury found that the
 university's actions were not retaliation.' OIG accepted this conclusion.

         The complainant also alleged that members of the university committees that addressed
 his allegations had conflicts of interests that compromised their ability to make objective
 decisions concerning his allegations. OIG raised some additional conflict-of-interests concerns
 with the university. OIG concluded that the university satisfactorily addressed all of our
 concerns about conflicts of interests and that there was no evidence that either the information
 the university supplied or the conclusions it drew were tainted by conflicts of interests.

          This investigation is closed and no further action will be taken on this case.

Cc: Integrity, IG




  OIG had several reasons for giving a low priority to completing our analysis of the university's reply to our
letter: (1) the inquiry committee concluded that there was no substance to the allegation of falsification. (2) the
allegedly falsified research appeared in a conference abstract and not in a more authoritative publication, (3) the
allegedly falsified research was not discussed at the subject's conference presentation, and (4) numerous other
allegations the complainant made against the subject, including his allegations concerning the proposal and the
patent application, had been found to be without merit and based on incomplete knowledge of the research that
had been done by the subject and other scientists affiliated with him.
' Transcript-fo

                                              Page 2 of 2                                      M93-65
